<html>
<title> - FIELD HEARING ON VOTING RIGHTS AND ELECTION ADMINISTRATION IN GEORGIA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 FIELD HEARING ON VOTING RIGHTS AND ELECTION ADMINISTRATION IN GEORGIA

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                                 OF THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 19, 2019

                               __________

      Printed for the use of the Committee on House Administration
      
      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
           https://govinfo.gov/committee/house-administration
           
           
                                __________          
           
                   U.S. GOVERNMENT PUBLISHING OFFICE
                
37-653                         WASHINGTON: 2019           
           



                            C O N T E N T S

                              ----------                              

                           FEBRUARY 19, 2019

                                                                   Page
Field Hearing on Voting Rights and Election Administration in 
  Georgia........................................................     1

                           OPENING STATEMENTS

Chairwoman Marcia L. Fudge.......................................     1
    Prepared statement of Chairwoman Fudge.......................     3

                               WITNESSES

Ms. Stacey Abrams, CEO and Founder, Fair Fight Action............     4
    Prepared statement by Ms. Abrams.............................     7
Ms. Gilda Daniels, Direction of Litigation, Advancement Project..    17
    Prepared statement of Ms. Daniels............................    20
Mr. Sean J. Young, Legal Director, Georgia ACLU..................    26
    Prepared statement of Mr. Young..............................    28
Ms. Stacey Hopkins, Fulton County Voter..........................   100
    Prepared statement of Ms. Hopkins............................   102
Mr. Cliff Albright, Co-Founder, Black Voters Matter..............   104
    Prepared statement of Mr. Albright...........................   106

                       SUBMISSIONS FOR THE RECORD

Ms. Tracy Adkinson, President, League of Women Voters of Georgia, 
  statement......................................................   132





 
 FIELD HEARING ON VOTING RIGHTS AND ELECTION ADMINISTRATION IN GEORGIA

                              ----------                             


                       TUESDAY, FEBRUARY 19, 2019

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:38 a.m., at 
The Carter Center, 453 John Lewis Freedom Parkway NE, Atlanta, 
Georgia, 30307, Hon. Marcia L. Fudge [Chair of the 
Subcommittee] presiding.
    Present: Representatives Fudge and Aguilar.
    Also Present: Representatives Lewis, Johnson of Georgia, 
Richmond, Sewell, and Bishop of Georgia.
    Staff Present: Eddie Flaherty, Director of Operations; Sean 
Jones, Legislative Clerk; David Tucker, Parliamentarian; Khalil 
Abboud, Deputy Staff Director; Elizabeth Hira, Elections 
Counsel; Peter Whippy, Communications Director; Veleter Mazyck, 
Chief of Staff, Office of Representative Fudge; Evan Dorner, 
Office of Representative Aguilar; and Courtney Parella, 
Minority Communications Director.
    Chairwoman Fudge. The Subcommittee on Elections of the 
Committee on House Administration will come to order. On behalf 
of our Chairperson, Rep. Zoe Lofgren, I would like to thank the 
Members of the Subcommittee, Pete Aguilar, and my colleagues 
from the House who are here with us today, as well as our 
witnesses and all those in the audience, for being here this 
morning.
    I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and that 
written statements be made a part of the record.
    Mr. Aguilar. So moved.
    Chairwoman Fudge. Thank you.
    Hearing no objection, so ordered.
    My name is Marcia Fudge, and I am the Subcommittee 
Chairwoman on Elections. I want to thank my colleagues, our 
witnesses, and the people of Georgia for joining us here today.
    I also want to thank my distinguished colleague who is 
going to be here shortly, Rep. John Lewis, a living hero of the 
Civil Rights movement, for welcoming us so warmly to his 
district as we continue this important work.
    I cannot think of a better place to continue our discussion 
on why all sections of the Voting Rights Act are still 
essential to ensuring all Americans can exercise their 
Constitutional right to vote than in this State, the State of 
Georgia.
    After the Supreme Court's decision in Shelby County v. 
Holder, Georgia moved quickly and aggressively to roll back 
voting rights. Between 2012 and 2016, 750,000 more names were 
purged from the voter rolls. Then, from 2008 to 2012, of the 
159 counties in the State, 156 reported increased removal 
rates, including in the State's most populous counties.
    Just last year, the State attempted to close seven out of 
nine polling places in majority black Randolph County. Georgia 
has closed more than 200 polling places statewide since 2012.
    We have with us today Georgians who are right in the middle 
of the fight for justice:
    Stacey Abrams, whose activism and campaigns have brought 
national attention to Georgia.
    Stacey Hopkins, who will be joining us on the next panel, 
an active voter who was illegally purged from the rolls.
    Sean Young, a litigator from the ACLU who has represented 
disfranchised voters all over the State.
    Cliff Albright, cofounder of Black Voters Matter, whose 
group speaks up for the vulnerable and marginalized Black 
communities.
    Lastly, Gilda Daniels of the Advancement Project, who 
fights for us all over the country, including Georgia.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    I look forward to your testimony, and I thank you on behalf 
of the people of the United States.
    Ms. Abrams, welcome. The floor is yours.

STATEMENT OF STACEY ABRAMS, CEO AND FOUNDER, FAIR FIGHT ACTION, 
     AND FORMER HOUSE DEMOCRATIC LEADER, GEORGIA HOUSE OF 
                        REPRESENTATIVES

    Ms. Abrams. Thank you, Chairwoman Fudge and Committee 
Members. I appreciate the opportunity to address this hearing 
today.
    I hold the right to vote to be the most fundamental 
privilege of a citizen. My parents, who were active in the 
civil rights movement, instilled in their six children a 
reverence for the franchise and an obligation to protect it.
    I do not view this responsibility as partisan. When 
credible nonpartisan issues on voting arise, I have worked with 
all comers to identify the most effective means to guarantee 
access. Likewise, when legislators and others sought to 
unfairly restrict the right to vote, I worked hard to defeat 
it.
    In addition to standing as a candidate for governor in 
2018, I served in the role of minority leader for 7 years, 
where I had a broad view of the challenges facing voters across 
the State.
    Moreover, as the founder of the New Georgia Project, one of 
the State's largest third-party voter registration 
organizations, I have firsthand experience with the obstacles 
embedded in the registration process, as managed by the prior 
secretary of state, Brian Kemp.
    Moreover, as a longtime advocate for voting rights, I am 
deeply concerned about the impact on our democracy if action is 
not taken immediately to support access to voting rights for 
all eligible citizens.
    On November 6, 2018, Georgia experienced unprecedented 
turnout in its midterm election. Communities long isolated from 
the electoral process cast their ballots, including increases 
in voting across racial and ethnic groups and age groups. Most 
fairly, this surge should be attributed to those grassroots 
organizations that work hard not only during election cycles 
but year-round to build civic engagement and to broaden 
participation in the polity of Georgia.
    While this dramatic increase in voter participation should 
be celebrated, the rise in turnout cannot be allowed to mask a 
more troubling trend. Voters, many of whom were first-time 
voters, experienced numerous issues with being located on the 
voting rolls, receiving and returning absentee ballots, and 
were given a disturbing number of provisional ballots rather 
than being allowed to vote unhindered.
    In some areas, the elections officials refused to provide 
provisional ballots, citing a shortage of paper. In counties, 
polling locations ran out of provisional ballots and backup 
paper ballots.
    Frustrated voters received inaccurate information regarding 
their rights, and thousands of voters were forced to vote using 
provisional ballots due to long lines.
    An untold number simply gave up, unable to bear the 
financial cost of waiting in line, because Georgia does not 
guarantee paid time off to vote.
    Across the State, voters faced obstacles that shook their 
confidence in the electoral process, leading to more than 
50,000 calls to a local voter protection hotline in the 10-day 
period immediately following the election. From issues with 
registration, to ballot access, to the counting of votes, 
Georgians faced a systemic breakdown in its electoral process.
    In response, on November 16, while I acknowledged the 
outcome of the election, I also called upon my fellow Georgians 
to join me in pursuing a fair and equitable system that 
operated effectively, efficiently, and equally through the 
entity Fair Fight Action. I did so in full awareness of a 
decade of actions that had undermined the election system, 
often misappropriating existing laws or operating in ways that 
faced legal challenge.
    While several of these Federal lawsuits worked, the 
secretary of state and others pushed through local laws to 
restore obstacles to voting.
    Yet, we must recognize that Georgia's experience, while 
singular, is not unique. In 2013, with the effective neutering 
of the 1965 Voting Rights Act, States and localities raced to 
restore or manufacture new blocks on voting. Unfortunately, 
Georgia has been a leader in this endeavor.
    However, this attack on voting rights is not new. Though 
the speed of constraints quickened in the years after the 
Shelby decision, for Georgians voter ID laws came first, 
followed by an increase in closed or consolidated precincts, 
assault on third-party registrations, database challenges that 
spoiled legitimate registrations, vulnerable or inadequate 
equipment, and lax oversight of county application of State 
laws, leading to disparate treatment based on county lines.
    Incompetence and malfeasance operate in tandem, and the 
sheer complexity of the State's voting apparatus smooths voter 
suppression into a nearly seamless system that targets voter 
registration, ballot access, and ballot counting.
    Madam Chairwoman, I know that my time is about to expire, 
but I would like to extend my remarks, if possible.
    Chairwoman Fudge. Please go forward.
    Ms. Abrams. Thank you.
    Over again, these hurdles have had their desired effect. In 
Georgia, the then secretary of state purged more than 1 million 
voters, oversaw local closures of more than 200 precincts, held 
the registrations of 53,000 using the flawed process of exact 
match, and presided over what some report as the longest voting 
lines for Black voters in the Nation. Naturalized citizens had 
to sue for their newly secured rights, and organizations 
continue to fight for ballots in multiple languages.
    Unfortunately, Georgia also neglected its elections 
infrastructure, resulting in vulnerable, sometimes inoperable 
machines that were inadequately distributed to communities. 
Multiple times the lines drawn for districts have been 
misapplied or miscommunicated, forcing do-over elections or 
disqualifying otherwise eligible candidates.
    In isolation, each example is troubling, as it represents a 
voter who could not fully participate in the body politic. 
Combined, they represent the disenfranchisement of Georgia 
voters in general and targeted communities of color or low-
income neighborhoods in particular.
    Our goal is to reform Georgia's election management system 
by ensuring that voters who are duly eligible to register are 
not unfairly blocked or unfairly thrown off the rolls. Georgia 
must maintain an accurate, functioning voter registration list.
    In Georgia and around the country, the closure or 
consolidation of precincts unfairly punishes those who have 
challenges with transportation or who have other issues, 
including physical disability. Voters should be able to fully 
participate in lawful processes, such as absentee ballots. 
However, many reported failure to receive duly applied-for 
ballots.
    Counting duly cast votes is also an uncertainty in Georgia. 
A disturbing number of absentee ballots were rejected in 2018. 
And previously, the former secretary of state used the lawful 
right to absentee voting to target and prosecute citizens.
    In addition, Georgia has a provisional ballot system that 
is inconsistently applied. Administrative issues plague the 
process, including allowing different standards for the 
administration of elections in each of Georgia's 159 counties.
    In addition, Georgia should be compelled to replace 
insecure and unreliable voting machines with paper ballots and 
to do so with a procurement process that does not unduly enrich 
any allies of the leaders of the State.
    We would also benefit from a true statewide election 
supervisor who applies uniform standards and adequate resources 
for training and election administration.
    Georgia is the cradle of the Civil Rights movement and we 
are capable of conducting free and fair elections with record 
turnout. Yet, on Election Day, voters faced extremely long 
lines; registered voters were missing from the rolls; insecure, 
inadequate, and malfunctioning voting machines; insufficient 
provisional ballots; and election staff who were ill-equipped 
to meet voters' needs. These are all issues that can be solved 
by people of goodwill who recognize that no electoral process 
is perfect, but that perfection should be the goal.
    I am fighting for fair elections with the deepest 
recognition that improving our system will not change the 
outcome of November 6, 2018. However, as a citizen of Georgia 
and as an American who believes in our system of representative 
democracy, I am obliged to do all in my power to advocate for 
an end to voter suppression in all its forms and in all its 
spaces.
    On behalf of millions of Georgians, I express our gratitude 
to this Committee for your willingness to investigate and 
understand the threats embedded in our State's electoral 
apparatus. Together, we can press forward for an electoral 
system that truly represents and listens to its people.
    Thank you.
    [Applause.]
    [The Statement of Ms. Abrams follows:]
    
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairwoman Fudge. Thank you very, very much.
    First off, thank you for your time. I know it was a little 
difficult with some of the shifts we were making, so we 
appreciate it.
    Let me just say to you that, on behalf of us all, and 
especially the work that is going to be done by Representative 
Sewell and Representative Lewis with their bill and the work we 
are doing, we are here because of what happened in 2016. We are 
here because we are going to make it right. At some point, we 
are going to make it right. You know, as they say at home, we 
are going to fix it, I promise you we will.
    I wonder, if you just have a few minutes, I will allow just 
a quick question from each one of our Members. Do you have time 
for that?
    Ms. Abrams. Absolutely.
    Chairwoman Fudge. We will start with my colleague on the 
Committee, Representative Pete Aguilar of California.
    Mr. Aguilar. Thank you, Ms. Abrams. We appreciate your 
testimony.
    I wanted to ask you about the chilling effect--I know you 
have so much history and knowledge on voter registration 
efforts. Can you talk about the chilling effect for ongoing 
voter registration efforts that exact matches and all these 
signature issues play in, and ongoing effects that that is 
going to have on voter registration efforts?
    Ms. Abrams. Absolutely. Thank you, Congressman, for the 
question.
    As the founder of the New Georgia Project, I am proud of 
the work we have done to register more than 200,000 new 
Georgians during my tenure as the leader of the organization. 
Since that time, I believe another hundred thousand-plus have 
been added to the rolls.
    However, what we experienced through the exact match system 
necessitated that our organization keep paper records of all 
applications and this is despite the fact Georgia offers online 
registration.
    The challenge with online registration is that there is no 
adequate way to monitor and maintain that voters who apply are 
processed.
    Therefore, we maintain paper copies, which the Secretary of 
State, then Secretary of State Kemp disparaged, but which is 
the only reason we were able to in 2016 file suit to discover 
his illegal, what we would say is unlawful use of the exact 
match system.
    It unfairly captures people of color and women, it has a 
disproportionate effect on people of color, and it has a 
chilling effect, because these are communities that are least 
likely to register but for third-party registrations.
    We have to add to that the fact that under Secretary of 
State Kemp two organizations of color were raided by his 
office, challenged for their very active registering of these 
new voters.
    So what I would say is, yes, there is a chilling effect 
because of exact match, but also because of the hostility 
demonstrated by the then Secretary of State towards the active 
registration. Unless you did it his way and the right people 
were registered, he displayed a disparaging and I think deeply 
disturbing response to registration.
    He would argue that he increased registrations, and I would 
certainly point out that registrations increased despite his 
behavior, not because of it.
    Mr. Aguilar. Thank you.
    Chairwoman Fudge. Mr. Bishop of Georgia.
    Mr. Bishop. Thank you very much.
    Ms. Abrams, you have had a long history of fighting and 
working for the expansion of voter participation and 
registration. Of course, the work that you did with the New 
Georgia Project was extraordinary.
    Early on, you experienced some pushback from the then 
Secretary of State, and a number of those 200,000 were 
disqualified. You also discovered that Georgia's system of 
allowing the Motor Vehicle Bureau, when a person applies for a 
driver's license, to have their information sent automatically 
for voter registration, I believe during the course of that you 
discovered that that information was not being transferred to 
the Secretary of State's office, and if it was it was not being 
recorded.
    I think you also discovered that there were some cases of 
prosecution of individuals who availed themselves of the lawful 
absentee voter process in Brooks County, for example, which 
resulted in a SWAT team descending on the county after the 
election where school board members, a majority of the school 
board was elected by minorities, and held the school board.
    Subsequently, shortly after they took office, they were 
indicted. And, of course, there was a 2-year waiting period 
between the time of the indictment and the time they finally 
went to trial and were acquitted, which had the effect of a 2-
year chilling effect.
    Could you discuss that and perhaps even some of the 
irregularities in Early County, similar circumstances?
    Ms. Abrams. I think what is important to articulate in this 
process is that these are not isolated incidents, that the 
behavior that was evidenced over the course of a decade by the 
then Secretary of State demonstrated a deep disregard for the 
voting rights of all Georgia citizens.
    What you described is often referred to colloquially as the 
Quitman 10: 10 people who during the process of trying to stand 
up for their children and their community successfully 
advocated for voter turnout levels that allowed African 
Americans to sit on the school board at numbers previously 
unseen.
    In response, they were arrested. They were harassed and 
many lost their jobs. Several were never able to reclaim their 
good names. One person, I believe, was permanently 
disenfranchised despite the fact not a single case was found--
not a single person was found to be guilty during the process 
of the litigation.
    Similarly, in Hancock County, when too many African 
Americans showed up to vote in 2014, the current Chair of the 
Judiciary Committee in the Georgia House of Representatives, 
Barry Fleming, who is also the purveyor of legislation that 
will further, I think, extend disenfranchisement, he authorized 
the following home of African American voters to investigate 
whether they were lawful voters in Hancock County and this 
investigation was conducted sometimes by the sheriffs.
    It is not simply a chilling effect; it is an intimidation 
effect and what we have to understand is these are Georgians, 
these are American citizens whose lawful right to cast a ballot 
has been constrained by his behavior.
    I know that others who will be testifying can provide 
deeper information, but I will say this: We must understand 
that voter suppression is not simply a momentary act. It is a 
system of disconnecting our citizens from the policies that 
govern their lives. If we want communities to stand up for 
more, they must be allowed to speak up when they stand up.
    Mr. Bishop. Can I just get you to follow up and talk about 
the inability to monitor the actual counting of votes, because 
the system does not have a paper trail?
    Ms. Abrams. I will say that at 3 p.m. today, the State 
legislature will be considering legislation that has been put 
forward that would trade our currently inoperable, vulnerable, 
and hackable system for a further hackable system at a higher 
price tag that will then actually benefit colleagues of the 
current Governor.
    But here is the point: We do not have an auditable trail in 
Georgia. We cannot audit our elections. We cannot prove that 
the votes cast are the votes counted. And when you have no 
faith in the system, you have no reason to participate in the 
system. And that chilling effect should be worrisome to us all.
    Chairwoman Fudge. Thank you very much.
    Mr. Johnson of Georgia.
    Mr. Johnson. Thank you, Madam Chairwoman. And thank the 
people who are here on this very important issue.
    Thank you, Senator Abrams, for--I am sorry, Governor 
Abrams. I don't know, whatever the decision might be. I know 
that there is going to be a prefix in front of that name.
    I very much appreciate the work that you are doing with 
Fair Fight. I don't know if you have spoken about that yet this 
morning, but if you could give us a few words about that. But I 
also want you to educate the panel on the undercount, the 
drastic undercount that took place in the Lieutenant Governor's 
race and tell us what your organization is doing in that 
regard.
    Ms. Abrams. Certainly.
    Fair Fight is a nonpartisan voting rights advocacy 
organization. I am proud to serve as our founder and chair. The 
CEO is Lauren Groh-Wargo.
    What we attempt to do in all parts of the State is to lift 
up the issue of fair voting, making certain that there is 
equitable, efficient, and truly equal access to the right to 
vote in the State of Georgia.
    It is also about connecting the right to vote to the very 
policies that the right to vote undergirds. We know that, for 
example, in the 2018 election, in the lieutenant governor 
election, there was statistically significant drop-off and 
undercount that almost specifically affected African Americans. 
It was a statistically significant drop-off because it did not 
occur in any other race other than the Lieutenant Governor's 
race.
    Now, the reason for that could be numerous. The challenge 
is, to Congressman Bishop's point, there is no way to find out 
what the problem was, because Georgia has machines that do not 
provide an audit trail. Unfortunately, the current machines 
under suggestion have similar flaws.
    We must have a system that allows for paper ballots and for 
hand counting of these elections, because machines are 
insufficient to guarantee access to the right to vote in the 
State of Georgia.
    Chairwoman Fudge. Thank you very much.
    Mr. Richmond of Louisiana.
    Mr. Richmond. Thank you, Madam Chairwoman. It is always 
good to be back in my second home. I went to Morehouse, and it 
is great to always talk to my Spelman sister.
    In your experience, let me just ask a very pointed 
question, because we are here without the protections of the 
Voting Rights Act, more particularly Section 4(b) and 5.
    My first question would be, when that was designed and 
enacted, the formula was all about jurisdictions that had tests 
and devices to keep people from voting. So fast forward to 
today. We have to talk about the new conditions and where we 
are now.
    My question would be, one, in your experience, does Section 
2 provide an adequate remedy when you see a problem being acted 
before the consequences are too dire? And the follow-up of that 
would be, instead of poll tests and other things, what are, if 
you could just--in your testimony you say it--but if you could 
just specifically and quickly articulate what has now become 
the new test and barriers, it would be very helpful.
    Ms. Abrams. Certainly. I certainly know there are 
additional lawyers who will speak to this more specifically but 
here is what I would say.
    Section 2 essentially says that a bad action can be used as 
a predicate to argue that a new bad action cannot be taken. The 
challenge there is that you have to have someone 
disenfranchised before you can fight to make certain that 
someone else isn't disenfranchised but that means that someone 
lost their right to vote. That means that communities were 
disallowed from having a voice in their community.
    The beauty of Section 5 said that before you commit harm, 
you had to be held to a higher standard. Section 2 says once 
harm has been committed you have the ability to argue that it 
shouldn't be repeated, and, therefore, it is an insufficient 
standard for a Nation that is grounded in the notion of 
democracy. Representative democracy is the way to push forward 
our thoughts and ideas as citizens.
    The poll tax issue is this. In the State of Georgia, for 
example, you do not receive paid time off to vote. You cannot 
be fired from your job for going to vote, but you do not 
receive paid time off.
    On its own, that seems potentially sufficient, but Georgia 
has a disproportionately high number of service workers, 
meaning those who are very much paycheck-to-paycheck workers. 
In the State of Georgia, if you are African American, you are 
more likely to face long lines, sometimes to the level of 4 
hours. That is half a day's pay.
    For families living paycheck to paycheck, losing an entire 
day or half a day's pay--and that doesn't take into account the 
time it takes you to get to your polling place and the time to 
get back to your job--that is an economic cost that is 
quantifiable and, therefore, I believe should be allocated as a 
poll tax, which we have said under the 15th Amendment should be 
unlawful in the United States of America.
    Chairwoman Fudge. Thank you.
    Representative Sewell of Alabama.
    Ms. Sewell. First, a point of personal privilege. I just 
want to say to Leader Abrams that you did all of us proud in 
your campaign, in your run for Governor, and I wish you much 
success in all your future endeavors. All I can say is black 
girl magic.
    [Applause.]
    Ms. Sewell. As a daughter of Selma, I have to say that, 
when Congress enacted the Voting Rights Act of 1965, it had a 
dramatic effect on allowing African Americans and people of 
color, those who were the minorities in their communities, to 
have access to the ballot box and, thus, a voice. In fact, the 
number of folks that registered increased exponentially. In 
places like Marion, Alabama, Perry County, where only 6 percent 
of African Americans were registered, it went to something like 
80 percent.
    In your position as leader, minority leader in the Georgia 
State Legislature, after the Shelby v. Holder decision did you 
see a dramatic increase in activity by the State legislature to 
add further restrictions on voting, such that it made it harder 
for folks to vote?
    The Supreme Court said in its Shelby decision that our 
formula was outdated and that really there was no cause for us 
to discriminate against certain States for prior actions.
    So I would love to know your thoughts as a legislator, a 
State legislator, whether or not the decision had a chilling 
effect or did it allow a lot of State laws to be imposed that 
were discriminatory. That would go to the heart of whether we 
need to, as a Congress, put back in place a formula and put the 
teeth back into Section 4.
    Ms. Abrams. So here is how I would frame it. In the State 
of Georgia, the Shelby decision did have a very insidious 
effect. But what we need to remember is that it not only 
governed the actions of State legislatures, it governed the 
actions of appointed folks or other elected officials, 
including secretaries of state and county officials.
    What is so pervasive in the State of Georgia with regards 
to diminishing the right to vote was that it was the Secretary 
of State who had almost unilateral authority to, I would say, 
manipulate existing State law, but then impose his own policies 
that were not subject to public review or to judicial review or 
the judiciary review of the Department of Justice. And, 
therefore, without passing a single new law, he took existing 
laws and used those laws as weapons against their own people.
    During my tenure as leader, we had a very effective 
relationship with the majority party, and I was able to 
forestall, working in cooperation with members of both my party 
and the other party, to forestall more deleterious legislation, 
unlike legislation that passed in North Carolina and Texas and 
in your home State of Alabama.
    We did see in 2017 probably the most perverse expansion of 
this power, which is that a Federal judge said that exact match 
had a disproportionate effect on people of color and women, and 
the secretary of state agreed not to use the system for 
approximately a couple of months. He then came to the 
legislature and said: ``Please put into law that which I 
consented not to use.'' There was no judicial review.
    So I think it is important for us to restore Section 5 
because we have a complicated system in our country. 
Representative democracy doesn't simply happen at the 
Congressional or State legislative level, it happens at every 
level of elected and appointed government.
    Ms. Sewell. Does that rise to the level of needing Federal 
oversight?
    Ms. Abrams. Absolutely, because that Federal oversight--and 
this goes to Congressman Richmond's question--that oversight 
allows us to cure problems before harm is caused.
    Under the current system, harm must exist, and that harm 
has deeply deleterious, longstanding. and deep-reaching 
effects.
    Going to Congressman Bishop's question, the effect on the 
Quitman 10 did not simply harm those folks. It diminished 
participation in the elections plus it limited and had a 
chilling effect on voters and it hurt children who deserve to 
have voices at the table looking out for their best interest. 
That is fundamentally what democracy is about, speaking for the 
people.
    Ms. Sewell. Thank you, Madam Chairwoman. Thank you.
    Chairwoman Fudge. Thank you.
    Ms. Abrams, we want to thank you not just for being here 
today, but for the work you have done for many years, for your 
dedication and your commitment to the people of Georgia and 
this Nation.
    We will be back in touch with you. We want to go across the 
country. We have many more of these hearings to have in other 
States. We are going to ensure by the time we get to 2020 we 
will not be dealing with the same issues that we are dealing 
with today.
    [Applause.]
    Chairwoman Fudge. I just want to--there is a young man 
sitting in the audience that I met this morning. He came and 
introduced himself to me. His name is Niles. He is in the 11th 
grade. I don't even know why he is not in school.
    You have learned a lot already this morning, Niles. Keep up 
what you are doing and keep being involved.
    He starts to talk to me about the ACLU case in Ohio. I am 
looking at him like, where did you come from?
    But it is people like you, young people like you that are 
the next Stacey Abrams. So keep doing what you are doing, young 
man.
    Again, I thank you so much.
    It is time for our next panel.
    Thank you very much, Ms. Abrams.
    Ms. Abrams. Thank you, Madam Chairwoman.
    [Applause.]
    Chairwoman Fudge. Next panel.
    We are pleased to begin our second panel. Again, I would 
like to introduce our witnesses. They are Stacey Hopkins, an 
active voter who was illegally purged from the rolls; Sean 
Young, a litigator from the ACLU who has represented 
disenfranchised voters all over the State of Georgia; Cliff 
Albright, cofounder of Black Voters Matter, whose group speaks 
for the vulnerable and marginalized Black communities; and 
Gilda Daniels of the Advancement Project.
    Welcome all. Each of you will have five minutes to give 
your testimony. We will hear all the testimony, and then we 
will open it to the panel for questions.
    You will see the light system. Green means go; yellow means 
prepare to close; red means close as quickly as you can.
    Thank you very much.
    We would begin today with Ms. Hopkins.
    You don't want to start?
    I will start down here. All right. All right. Let us start 
with Ms. Daniels.

     STATEMENTS OF GILDA DANIELS, DIRECTOR OF LITIGATION, 
  ADVANCEMENT PROJECT; SEAN J. YOUNG, LEGAL DIRECTOR, GEORGIA 
ACLU; STACEY HOPKINS, FULTON COUNTY VOTER; AND CLIFF ALBRIGHT, 
                 COFOUNDER, BLACK VOTERS MATTER

                   STATEMENT OF GILDA DANIELS

    Ms. Daniels. Good morning. Thank you for the opportunity to 
provide remarks on voting rights and election administration in 
Georgia. My name is Gilda Daniels. I am the litigation director 
for the Advancement Project's National Office.
    Advancement Project is a national racial justice 
organization that partners with grassroots organizations on the 
ground to inspire, empower, and develop community-based 
solutions. The premise for this approach is based on the 
strategies and courage that produced the landmark civil rights 
victories of earlier eras that utilize the tools of social 
activism to create meaningful change.
    Here in Georgia, Advancement Project is proud to partner 
with the New Georgia Project to advance voting rights. In 
addition to my work at the Advancement Project, I am a tenured 
professor at the University of Baltimore School of Law. Also, 
most importantly, I am a former deputy chief in the United 
States Department of Justice, Civil Rights Division, Voting 
Section during the Clinton and Bush administrations.
    I have been a voting rights attorney for more than two 
decades. I am a member of the State Bar of Georgia and have 
been involved in monitoring voting issues in Georgia, including 
during the 2018 general elections.
    Accordingly, I have watched the cycles of voting rights ebb 
and flow, from the expansion of voter registration 
opportunities under the National Voter Registration Act to the 
proliferation of disenfranchising tools, such as voter ID and 
proof of citizenship laws, that are prevalent today.
    Through these twists and turns, the primary tool for 
ensuring the free and nondiscriminatory access to the right to 
vote has been the Voting Rights Act of 1965. The Voting Rights 
Act has two -- or had two primary provisions: Section 2, which 
is essentially the litigation arm of the Voting Rights Act, and 
Section 5, which provided Federal oversight in its covered 
jurisdictions, and those jurisdictions were determined by a 
formula within the Voting Rights Act.
    That was found unconstitutional in the 2013 case Shelby 
County v. Holder. That is where the United States Supreme Court 
found the coverage formula contained in Section 4 of the act 
outdated and, therefore, unconstitutional. This was 
significant, because Section 4 determined jurisdictions that 
were required to make submissions to the Federal Government 
under Section 5 of the act, meaning any voting change had to be 
submitted to either the Attorney General for the United States 
or the United States District Court for the District of 
Columbia, to ensure that it did not place minority voters in a 
worse position, that it was not retrogressive, that it did not 
go back.
    Jurisdictions like the State of Georgia and many States in 
the South--Georgia, Alabama, Louisiana, Texas, parts of 
Florida, parts of North Carolina, Virginia--were all covered 
jurisdictions. Removing the requirement that these 
jurisdictions submit these voting changes certainly eliminated 
a key weapon in the voting rights arsenal.
    Section 5 served as a safeguard for discriminatory voting 
changes. It was an important prophylactic that prevented 
jurisdictions from implementing laws that harmed minority 
voters. It provided important oversight for voting changes and 
practices. It prevented jurisdictions from implementing laws 
without providing notice to minority communities.
    Without Section 5, jurisdictions are free to pass and put 
laws into place without considering the impact on its citizens. 
These laws go into practice and civil rights groups are 
burdened with the responsibility of learning of these changes 
that were once routinely submitted to the Federal Government. 
More importantly, these legal changes happen after the changes 
have occurred, not before, as under Section 5.
    After the Shelby decision, we saw new restrictions on 
voting have been implemented in Southern States that were 
previously covered by the Voting Rights Act's preclearance 
provisions.
    Georgia, in particular, instituted a number of 
retrogressive and arguably discriminatory practices, such as 
voter identification and proof of citizenship requirements, 
cuts to early voting, closed hundreds of polling places in 
communities of color, and undertook massive voter purges.
    Leading into the 2018 general elections, as Ms. Abrams 
described, Georgia placed more than 50,000 voter registrations 
on hold, provided inoperable voting machines and untrained poll 
workers for its elections. It also designated eligible voters 
as noncitizens and then required them to prove otherwise in a 
precarious and opaque system.
    Prior to the dismantling of the Voting Rights Act in the 
Shelby decision, Section 5 would have required Georgia and its 
sub jurisdictions to seek preclearance prior to implementing 
these changes. If Georgia had been subject to Section 5, many, 
if not all, of these practices would have never been 
introduced. It would have had the burden of demonstrating that 
the proposed practice did not impede the right to vote. The 
years of litigation and frustration would have been avoided had 
the protections of the Voting Rights Act remained in place.
    Without Section 5, civil rights groups and individuals face 
the costly task of litigating voting practices after they have 
adversely affected communities of color. I saw some of these 
problems manifest firsthand while monitoring voting in Georgia 
during the November 2018 midterm elections.
    Quickly, I again want to thank the Subcommittee for having 
this hearing. It is imperative that we develop a Federal 
solution that eliminates discriminatory barriers to the ballot 
box. Ideally, Congress should restore Federal oversight over 
voting changes. I would also add that we also need an 
affirmative and explicit right to vote in the United States 
Constitution.
    I want to thank Chairwoman Fudge and the Subcommittee on 
Elections for holding this field hearing. It is time for 
Congress to act to reinstate the protections of the Voting 
Rights Act.
    [The statement of Ms. Daniels follows:]
       
       
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Chairwoman Fudge. Thank you very much.
    [Applause.]
    Chairwoman Fudge. Mr. Richmond.
    I now recognize Mr. Young.

                   STATEMENT OF SEAN J. YOUNG

    Mr. Young. Good morning. My name is Sean Young, and I am 
the legal director of the ACLU of Georgia.
    Today, I am going to highlight three areas in which the 
Shelby County decision has made it more difficult for people of 
color to exercise their right to vote in Georgia, as well as 
the strenuous efforts required to beat back these measures 
without preclearance. I am speaking based on my personal 
knowledge as a voting rights lawyer in Georgia.
    I am going to focus on three areas: redistricting, polling 
place closures, and early voting cutbacks.
    First, discriminatory redistricting. The ACLU of Georgia's 
litigation in Sumter County perfectly illustrates the damage 
that the Shelby decision has caused. In 2011, 67 percent of the 
Sumter County Board of Education was African American.
    Then, the General Assembly proposed a plan that would 
reduce that percentage to 28 percent. The DOJ did not preclear 
the plan, but then the Shelby County decision was handed down, 
and that discriminatory plan was put into effect immediately.
    The ACLU filed a voting rights lawsuit under Section 2. 
Last summer, after 5 years of litigation, the Federal District 
Court issued a ruling finding that the plan was discriminatory 
and violated the Voting Rights Act.
    That is five years of time-consuming litigation, hundreds 
if not thousands of attorney hours, and thousands of dollars in 
expert fees. That is five years of discriminatory elections 
taking place over and over again in Sumter County and that is 
five years in which African American school children and their 
parents did not have their interests adequately represented in 
the board. We are two years away from another round of 
redistricting, in which all of this can happen again.
    If the preclearance requirement were in place, none of this 
would have happened and that plan wouldn't have seen the light 
of day.
    Second, I am going to talk about discriminatory polling 
place closures. In the last two years, the ACLU of Georgia has 
had to beat back polling place closures in three counties: 
Randolph, Fulton, and Irwin.
    Last August, as Chairwoman Fudge mentioned, in Randolph 
County the Board of Elections tried to close seven out of nine 
polling places in a county that is 60 percent black on the eve 
of the State's general elections in 2018.
    The ACLU of Georgia wrote a letter threatening to sue if 
they moved forward with the plan. And then my Executive 
Director, Andrea Young, and I testified at two public hearings 
that the board held. Then our partners had to mobilize massive 
community opposition to show up at these hearings and express 
their opposition. Our media strategy ensured wall-to-wall media 
coverage. We quickly put together a lawsuit that could be ready 
to go as soon as this plan went into effect and all of that 
happened in less than two weeks.
    All that had to happen before the board finally relented 
and withdrew their proposal. Then we learned it was a 
consultant handpicked by the Secretary of State that had 
recommended these discriminatory polling place closures, and he 
bragged about having closed polling places in 10 different 
other counties in rural Georgia. Nine of those 10 are 
disproportionately black.
    In Fulton County, the Board of Elections voted to close 
polling places in neighborhoods that were over 80 percent 
African American, affecting over 14,000 voters. Within days, 
the ACLU of Georgia filed a lawsuit over the board's violation 
of the State's public notice law which nullified that decision.
    The fight wasn't over. Our partners had to quickly recruit 
dozens of paid neighborhood canvassers to go out in the 
community to draw opposition to this plan in less than a month. 
It was only after those efforts that the plan was defeated.
    In Irwin County, the Board of Elections tried to close the 
only polling place that existed in the only Black neighborhood 
in the county, contrary to the recommendations of a nonpartisan 
association of county commissioners. The board alleged that it 
wanted to save money, yet their plan kept open a polling place 
at the edge of the county at Jefferson Davis Memorial Park, in 
a neighborhood that was 99 percent white.
    It was only after the ACLU of Georgia threatened litigation 
that they backed down. And those are only three counties. 
Georgia has 159. As we all know, over 200 have closed since 
Shelby County.
    Playing whack-a-mole is not a sustainable strategy to fight 
against voting discrimination.
    [Applause.]
    Mr. Young. Last--and I will wrap up quickly--discriminatory 
cutbacks to early voting. I have some personal experience with 
this leading ACLU's litigation in Ohio to fight against their 
discriminatory early voting cutbacks.
    It seems like every year since Shelby County legislators 
have been trying to attack early voting, especially early 
voting on Sundays, which everyone knows is when African 
American churches organize Souls to the Polls.
    In 2014, a State representative criticized his county for 
allowing Sunday voting, and he wasn't shy about why. He said, 
quote: ``This location is dominated by African American 
shoppers and it is near several large African American mega 
churches,'' unquote. In his view, he said he would, quote, 
``prefer more educated voters.''
    As these examples illustrate, discriminatory voting changes 
have forced lawyers and community activists to scramble to stop 
every discriminatory change that pops up, and that is to the 
extent that we hear about them. We don't and can't stop all of 
them, and that is why we need a new preclearance provision. 
Thank you.
    [The statement of Mr. Young follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Fudge. Thank you very much.
    Ms. Hopkins, are you prepared?

                  STATEMENT OF STACEY HOPKINS

    Ms. Hopkins. I am going to try to do this under five 
minutes. It is going to try not to sound like speed reading.
    Chairperson Lofgren, Chairwoman Fudge, Ranking Member 
Rodney Davis, and Members of the Committee, I would like to 
sincerely express my thanks to this body to allow me to testify 
today about my experience as a victim of voter suppression.
    I need to clarify, I was not purged from the voting rolls. 
Thanks to my attorney, Sean Young, and Andrea Young and the 
ACLU, we were able to push back, because no one is ever coming 
to take something that was so hardly fought from me or anyone 
else in Georgia. They will never take my right to vote.
    [Applause.]
    Ms. Hopkins. It is a position I also never found myself in 
my wildest dreams that I would be here in 2019 fighting the 
same issues my ancestors have waged since arriving on these 
shores of this country in 1619. We were led to believe that the 
promise of America, of liberty and justice and freedom, are 
extended to us all. In 1965, we were led to believe that we had 
a win contained in the passage of the Civil Rights Act of 1964.
    Sadly, I am here to say that the fight in opposition to 
that has never ended, not in this State, and it has manifested 
itself in disturbing ways in Georgia. For black people and for 
people of color, we are still viewed as holding second class 
citizenship in this State.
    The state of our elections and voting rights is a dire 
emergency and a crisis of voter confidence. We have sent out 
the warning signs for years. I am asking Congress to intervene 
to answer this call to protect and defend what was so hard-
fought for and many of us thought won.
    I was born in 1963. I am a child of the Civil Rights 
movement. And as an adult, I found myself living in Atlanta, 
part of the mighty Fifth District, represented by the Honorable 
John Lewis. I had always heard about his stories about his 
heroic stance on that day, Bloody Sunday, in Selma, Alabama.
    In that same year, a Supreme Court decision was argued and 
decided, Gray v. Sanders, and it was initiated by a citizen of 
the same county I now reside in, by a Mr. James Sanders, who 
successfully challenged the use of a statewide election system 
found to be a form of voter suppression, in violation of the 
14th Amendment's guarantee of equal protection, the county unit 
system. This system undercut and diluted the strength of the 
individual voter and violated the constitutional principle of 
one person, one vote.
    In 2017, I found myself a Fulton County voter challenging 
the legality of my State and county for beginning the process 
of illegally targeting myself, three of my adult children, and 
over 380,000 voters in one action in one year. We were part of 
the 1.4 million Georgia voters that were removed since 2012 by 
the Georgia Secretary of State's office headed by now Governor 
Brian Kemp.
    We were to be classified as inactive voters and designated 
to be purged off the voting rolls, using a method known as the 
postcard trick. I brought one of those postcards in so that 
people can see how innocent they look. This is what it looked 
like. This is what I received in the mail. [Indicating.]
    I can't really explain all the ranges of emotions that I 
felt when I saw this notice. I can only best describe it as an 
abbreviated version of the stages of grief, except the one 
thing that I would never do is accept this. It put in me a 
desire and motivation to stand up and fight back against what 
can only be called as massive and systemic voter 
disenfranchisement that has gone on virtually unchecked from 
the days of Reconstruction in Jim Crow to the erosion of the 
Voting Rights Act by the Supreme Court in its Shelby v. Holder 
decision.
    The problem in my case, and there is a fundamental question 
that I must ask that cannot be answered: What list was I on? 
Because, in my case, I moved intercounty, from one county to 
another. According to the remedies that are contained in the 
National Voter Registration Act of 1993, there was nothing for 
me to do other than to update my address with the U.S. Postal 
Service, which I did.
    The second problem with me receiving one of those notices 
is that it said that I would be deemed an inactive voter. I 
could not have been deemed an inactive voter if myself and my 
children had just voted that same year in the elections that we 
were eligible in.
    To this date, I was not on crosscheck. I was not on any 
list other than the U.S. Postal Service list. If that had been 
followed and in accordance with the law, I would have never 
received those notices.
    I still ask the question: What list were we on? To date, no 
one on the State or county level can answer us or have even 
attempted to do so.
    What was done was done on the orders of the Secretary of 
State, now Georgia Governor Brian Kemp, my county Election 
Board, headed by Director Richard Barron, by utilizing a list 
of selected voters to receive the mailers, but we still don't 
know its source. The actual notice indicated that I had moved 
and should have been the first clue of a violation of a voting 
statute, but we did not hear that.
    Long story short, on the eve of our case being heard in 
court, I was contacted about a settlement, and I agreed to it 
because there was an election upcoming where it was important 
that the statuses be reinstated for these voters.
    However, we still saw massive and damaging acts of voter 
suppression and disenfranchisement from watching poll locations 
being closed, by watching people not finding their names on 
poll books who have voted for over 50 years. We saw so many 
actions that went on.
    This is a plea to you, to Congress, to please come in. 
There are things that you can do, and the first is repairing, 
strengthening the Voting Rights Act.
    [The statement of Ms. Hopkins follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairwoman Fudge. Thank you very, very much.
    Ms. Sewell. Madam Chairwoman, can we also have a copy of 
her postcard for the record?
    Chairwoman Fudge. Yes. We will pick up the rest of your 
testimony as we get to questions.
    Ms. Hopkins. Okay. Thank you.
    Chairwoman Fudge. You were very good. I don't know why you 
were so nervous. [Applause.]
    Chairwoman Fudge. Last, Mr. Albright.

                  STATEMENT OF CLIFF ALBRIGHT

    Mr. Albright. Chairwoman Fudge, all Committee Members, 
thank you for the opportunity to speak today. I am the 
cofounder of Black Voters Matter, along with LaTosha Brown. Our 
mission is to build power in predominantly Black communities, 
and we view elections as one way of doing so.
    During 2018, we traveled throughout seven States, seeking 
to mobilize Black voters and supporting over 120 community-
based partner groups. These seven States were Alabama, Florida, 
Georgia, Mississippi, North Carolina, South Carolina, and 
Tennessee, with honorable mentions of Texas, where we spent 
just a few days in Harris County.
    Collectively, these States form the bulk of the old 
Confederacy--the old failed Confederacy--an historical fact 
which is very much related to the topic of this hearing. While 
each of these States has its own examples of voter suppression 
during the recent midterms, the epicenter of voter suppression 
was arguably right here in Georgia.
    By now, the Committee is familiar with the headlines and we 
have talked about some of them: a gubernatorial candidate 
refusing to step down as chief election official, instead 
presiding over and picking voters in his own election; purging 
of 1.5 million voters; holding onto 53,000 voter registrations, 
most of which from black voters; inadequate supply of machines, 
which themselves are highly problematic; thousands of 
provisional ballots not counted; thousands of absentee ballots 
either lost or simply not counted; and, of course, what we have 
talked about, the closing of polling places throughout the 
State.
    Which brings me to the events of October 15, 2018, in 
Jefferson County, Georgia. We began our day of the voter 
mobilization rally at a senior center. We shared our message of 
love and power with dozens of seniors who were excited to 
participate.
    In fact, the group was so excited that the rally moved into 
the parking lot, where we added some music and had a good old-
fashioned dance party as the seniors sang along with James 
Brown: ``Say it loud. I am black and I am proud.''
    The group then asked if they could ride our bus, the 
blackest bus in America, to go early vote at the polling place 
just down the street. Before we could depart, the center's 
director received a call from the county administrator stating 
that the seniors could not ride the bus to go vote.
    In the interest of time, I will spare the Committee the 
administrator's inadequate and racist response, but will gladly 
discuss during Q&A.
    Ours wasn't the only vehicle to be blocked from providing 
rides to the polls. In Cordele, Georgia, one of our partners 
was providing rides to the polls when he was given a parking 
ticket by a state trooper. I repeat, a state trooper gave him a 
parking ticket and then proceeded to call for backup, resulting 
in a total of seven patrol cars, five of which were state 
troopers.
    What we have seen is a pattern of intimidation, and one of 
the most aggressive entities has been the Secretary of State's 
office itself. The office has an investigative unit which has 
pursued several high-profile yet frivolous cases against 
effective voting rights organizations. We mentioned one 
earlier, in terms of the New Georgia Project.
    Moreover, these armed investigators often conduct home 
visits to individual voters or activists, knowing that their 
pointless visits can have a chilling effect on civic 
engagement. In fact, just a few days ago, just a few days 
before this hearing, one of these investigators visited the 
community organizer who had invited us to Jefferson County. She 
is here with us today.
    The intimidation doesn't stop on Election Day. On November 
13, a week after the election, in the rotunda of the Georgia 
Capitol building, 15 peaceful protesters were arrested simply 
for making the very basic demand that the State should count 
every vote.
    Oddly enough, one of those arrested was a State senator, 
Senator Nikema Williams in spite of Georgia law which forbids 
the arrest of legislators while the assembly is in session.
    Now, some may hear this story and think to themselves that 
that was after the election, what does that have to do with 
voter suppression?
    My answer is very simple: It has everything to do with 
voter suppression, because those arrests, just like the 
Secretary of State investigations and just like the seven 
patrol cars for the rides to the polls, those arrests were 
meant to intimidate and silence. It was meant to send a message 
to those arrested as well as to those watching that if you 
participate in these activities, if you organize and educate 
voters, if you demand that your vote be counted, you, too, can 
be arrested.
    Fanny Lou Hamer once asked the question in a hearing not 
unlike this one. She asked: Is this America? Now, 55 years 
later, with the weakened Voting Rights Act, evidently the 
answer is yes, this is America. This is Georgia.
    I am here today to say the same thing we said all 
throughout 2018. Every time one of our voters were suppressed, 
every time one of our canvassers were harassed, and every time 
our bus was threatened, I am here to say today: Can't stop, 
won't stop.
    Madam Chairwoman, again, I thank you for this opportunity. 
I look forward to answering questions from the Committee.
    [The statement of Mr. Albright follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairwoman Fudge. I thank you all so much for your 
testimony.
    We will begin with the panel, and we will start with 
Representative Aguilar.
    You are recognized for five minutes.
    Mr. Aguilar. Thank you, Madam Chairwoman. Thank you all for 
the testimony.
    My first question: Mr. Young, we have so many issues here 
at play, and your testimony highlighted quite a few. And then 
our panel expanded on the balance: redistricting exact match, 
signature match, polling place closures, voter ID, early voting 
changes. But one I wanted to bring your attention to was 
specifically about access to language assistance.
    What requirements exist within Gwinnett and the other 158 
counties within Georgia?
    Mr. Young. Section 203 of the Voting Rights Act says that 
if a jurisdiction has at least 5 percent, or 10,000 people who 
are of a language minority, and they have depressed literacy 
rates, and the Census so designates them as such, that county 
or local jurisdiction must provide ballots and registration 
materials in that language.
    In Georgia, only one county so far has been designated as 
such, and that is Gwinnett County, which is one of our fastest 
growing, in terms of communities of color, counties in the 
State.
    That is the more familiar provision of the Voting Rights 
Act. But there is a lesser--well, it is not lesser. There is a 
portion of the Voting Rights Act that is less familiar to 
folks, and that is Section 4(e). Section 4(e) says that United 
States citizens from Puerto Rico are entitled to a Spanish 
language ballot. That applies even if their jurisdiction was 
not under that 5 percent rule.
    About a year--ago to this date, I testified in Hall County, 
which has a rapidly growing Latino population. I explained to 
the Board that they were unobligated under Section 4(e) to 
provide to Spanish language materials to U.S. citizens from 
Puerto Rico and the Board refused. This is the kind of barriers 
that we are dealing with in terms of fighting for the rights of 
language minority citizens.
    Mr. Aguilar. Just to follow up. So outside of Gwinnett 
County, what types of language assistance? Is it zero? Do you 
have to petition? What remedies are available for individuals 
when it comes specific to language assistance outside of 
Gwinnett?
    Mr. Young. Outside of Gwinnett, it is zero. So we are 
trying to find every way we can to get counties to voluntarily 
adopt language minority assistance, for example, invoking 
Section 4(e), which was unsuccessful in Hall County. But all 
the counties are also obligated under Section 2 of the Voting 
Rights Act to provide language assistance.
    We can't--as we have all started to learn, we cannot count 
on the Census and the Commerce Department to equitably 
designate counties that must fall under Section 203. So we are 
trying to fight everywhere we can.
    Mr. Aguilar. Thank you, Mr. Young.
    Ms. Hopkins, thank you so much for your testimony.
    Can you talk to the panel a little bit about--just kind of 
the broader intimidation and voter suppression efforts and what 
that means in your community?
    When your neighbors and friends also received those 
postcards, how does that make you feel about the process, and 
how does that make you feel about, you know, what we need to 
do? I appreciate more specifically your call to action on us to 
do more up here as well.
    Ms. Hopkins. I think--what I witnessed, I--you know, this 
is just one form. It is not really one particular form. It 
comes in various manifestations. You have heard the testimony 
of the precinct closures, the--what we call the postcard trick. 
We see quite a few of what we call whack-a-mole, which, on 
Election Day, they will change the precincts, sending people to 
wrong precincts to vote.
    It is a constant drive to meet those barriers that are put 
before us. As one who has done voter registration for years in 
the State, it actually--the apathy started to hit me after 
this. You know, after the last election, it was heartbreaking 
to see what happened in November. And a lot of it comes down to 
those voting machines, which is a big part of this.
    We are now just finding out that these machines are 
systemically moving votes from black precincts. Not just any 
precinct, black precincts. So if black votes don't matter, 
obviously they do, because someone is going through quite a bit 
of work to make sure that they don't.
    [Applause.]
    Ms. Hopkins. What it does is that it wears one down. As Ms. 
Abrams, the other Stacey, spoke about earlier, you do get 
apathetic. It does work to psychologically depress the right to 
vote.
    I think that for us in Georgia, for me in particular, and 
for my neighbors, it does not matter what barriers are put 
before us. It does not matter what obstacles we face. We will 
continue to rise up. We get tired and weary but when you think 
about the blood that has been on the ground for us to have this 
vote--and I say this quite a bit--black people, we have only 
had one win in this country. That was the Civil Rights Act and 
for me, it is a part of my DNA. I can no longer turn away from 
that fight anywhere than I can turn away from my children. I 
will be here, old, tired, a little beaten up, but I will be 
here in that fight in any manifestation I can be.
    Mr. Aguilar. Thank you for your answer.
    Thank you, Madam Chairwoman.
    Chairwoman Fudge. Thank you.
    Let me just pause one second and introduce our colleague 
and friend and the icon I talked to about earlier. 
Representative John Lewis has joined us this morning.
    [Applause.]
    Chairwoman Fudge. Mr. Bishop, you are recognized for five 
minutes.
    Mr. Bishop. Thank you very much. Let me thank all the 
panelists for your very informative and riveting testimony, 
especially Ms. Hopkins. I appreciate that very much.
    Each of you has identified various items that have resulted 
in voter suppression. Could you help us, as we prepare to 
repair this process, provide, with respect to each of the 
impediments that you have encountered, a prescription for 
fixing it.
    Ms. Hopkins, when it gets to you, would you talk about--you 
are in Fulton County, one of the most diverse counties in the 
State--about the precinct administration, the elections 
administration on the county level with regard to diversity and 
poll workers, and who was actually implementing these policies 
that affected you?
    Mr. Young. Thank you.
    Well, preclearance is the answer for all of them, because 
without preclearance, these local elections officials can just 
get away doing whatever they want under the radar, knowing that 
no one can monitor all 159 counties.
    Specifically and briefly, for polling place closures, 
polling places need to be frozen in place, and no changes can 
be made unless the county has done a thorough and public study 
of its racially discriminatory effects of their polling place 
closures. They need to do it not two weeks in advance of their 
vote, but months in advance so that the entire public and the 
media can fully assess whether these closures are legitimate.
    For early voting cutbacks, again, those must be frozen in 
place. We would argue all counties should have the same early 
voting hours. They should just have the same expanded early 
voting hours, evening and weekends.
    As for the redistricting measures. Again, that is very hard 
to catch. I know there is now a bill that would allow State 
legislators to have veto power over any redistricting decision 
that is made at the local level but those decisions also have 
to be made public. The maps that are being proposed most be 
public and the algorithms that people are using to draw these 
maps, right now they are proprietary and trade secrets or 
whatnot, those have to be made public so the public fully 
understands how these computer algorithms are drawing these 
lines, how the politicians are manipulating the algorithms to 
benefit their own party, and for the public to fully understand 
it, so that people can be held accountable in the democratic 
process.
    Ms. Daniels. Congressman Bishop, we need to treat the 
active voting as a fundamental right. It is easier to get a gun 
in Georgia than it is to register to vote.
    It is important that we restore the Federal oversight that 
was lost with Section 5. And in the first challenge to the 
Voting Rights Act, in South Carolina v. Katzenbach, Attorney 
General Katzenbach said that we needed to have this type of 
oversight to ensure that we don't have to endure piecemeal 
litigation, which is what we are seeing now that we no longer 
have Section 5.
    Instead of requiring jurisdictions like Georgia to submit 
voting changes to the Federal Government to determine whether--
to approve those changes, we are now seeing them just 
implemented and then trying to first get notice of those 
changes after they have been implemented. And then having 
organizations like the Advancement Project, the ACLU and 
others, to challenge them under Section 2 of the Voting Rights 
Act.
    Section 2 is not enough. It is the piecemeal litigation 
that Katzenbach warned us about more than 50 years ago that 
needs--and we need restoration.
    Again, finally, you know, and--and so we can avoid this 
piecemeal litigation. You asked this question. It can't be 
answered in two minutes. But certainly the most important thing 
is to restore the Federal oversight.
    Mr. Albright. Just quickly, I would say, definitely 
restoring oversight is a start. As was said, investment in the 
process, right? Investment and access to the vote. You know, 
investment so that there can be more polling places, so that 
there could be better education. Changing some aspects of 
expanding in a sense of, you know, why aren't 18-year-olds 
automatically registered to vote?
    So there are so many ways where, with greater investment, 
and investment in election protection, to take some of the 
burden off of the community groups that are currently doing it, 
but to actually invest in Department of Justice's ability to 
actually provide election protection, and to deal with some of 
the intimidation issues that aren't really fully captured by 
preclearance, right? None of the intimidation gets precleared.
    So, there has got to be a framework to deal with that, and 
that requires investment in resources in order to provide 
oversight on the ground, particularly in counties that are so 
often in isolation where a lot of these activities take place, 
and then they grow like bacteria and spread throughout the rest 
of the State.
    Chairwoman Fudge. Thank you very, very much.
    Mr. Lewis.
    Mr. Lewis. Good morning. You are a good-looking group.
    Let me just take a moment to thank each one of my 
colleagues for being here, and thank you for being here in the 
heart of my Congressional district. Welcome.
    I said on many occasions that the vote is the most powerful 
nonviolent instrument or tool that we have in a democratic 
society. We should make it easy and simple for everyone to be 
able to cast that vote.
    Some of you know, many years ago there was a young guy from 
Georgia by the name of Jose Williams, and this young 
Congresswoman Terri Sewell, that in her district, her hometown, 
it was almost impossible for people of color to register to 
vote. Only 2.1 percent of blacks of voting age are registered 
to vote in 1965.
    There was one county in Alabama, Lowndes County, between 
Selma and Montgomery, the county with more than 80 percent 
African Americans, there was not a single registered African 
American voter in the county.
    We may not be having that problem today, but there are 
forces in our region trying to take us back to another time and 
another period. You are bearing witness that we must not go 
back. We must go forward and open the political process and let 
everybody come in.
    I think President Carter said on one occasion, ``Being able 
to register to vote should be as simple as getting a glass of 
water.''
    Let's make it happen. Let's make it happen.
    Madam Chairwoman, thank you for your leadership and for 
your vision. I want to thank all my colleagues again. We have a 
fight on our hand, and we must win it. We cannot afford to lose 
it.
    Thank you very much.
    [Applause.]
    Chairwoman Fudge. Thank you very, very much.
    Mr. Johnson of Georgia.
    Mr. Johnson. Thank you, Madam Chairwoman. I want to thank 
the witnesses for their appearance today and for their work 
protecting the rights of Americans to vote.
    I have a unanimous consent request that the postcard that--
that a copy of the postcard, or the postcard, be included in 
the record of this proceeding.
    Chairwoman Fudge. Yes, it has been a--request for a 
unanimous consent that your postcard be entered into the 
record. I am going to make it with you since I am on the 
Committee of jurisdiction.
    Hearing no opposition, so ordered.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Johnson. Thank you, Madam Chairwoman.
    I would note that 160,000 Georgians, approximately, over 
the last four years, received such requests to update their 
addresses when they had simply moved from one location to 
another in the same polling location, the same polling 
district.
    The ACLU filed a lawsuit that would compel the Secretary of 
State to follow the law and update their voter registration 
files automatically. I want to thank Mr. Young, Attorney Young, 
for the work of the ACLU in bringing about that settlement.
    What I would like to find out is whether or not there has 
been compiled a laundry list of each and every effort 
undertaken by the Secretary of State in his, at least four-year 
crusade and campaign, to win the governorship with respect to 
making it more difficult for people, mostly African Americans 
and other minorities, to vote.
    Is there such a laundry list that has been compiled? If so, 
would you tell us each bullet point that reflects what took 
place? I want it for the record, though.
    Mr. Young. I can't produce that laundry list on command 
right now. But I can tell you that over a dozen lawsuits were 
filed last November, including one brought by the ACLU 
challenging various actions by the secretary of state and State 
legislators that have passed discriminatory voting measures.
    I know that Leader Abrams mentioned quite a few. There were 
absentee ballots that were rejected because signatures didn't 
match, which was a violation of procedural due process, as the 
Court found; there was exact match that disproportionately hurt 
people of color; there were absentee ballots illegally thrown 
out because they didn't have the right birth date or the birth 
date blank was not filled out. It is a confusing absentee 
ballot form.
    We had a lot of last-minute litigation challenging polling 
places suddenly closing, or absentee ballots not even being 
processed. There were thousands of absentee ballots that were 
just sitting there because we didn't have enough election staff 
or oversight of the Secretary of State's office to make sure 
that those applications and ballots were processed within 24 
hours.
    I personally know someone who was disenfranchised because 
his absentee ballot arrived too late in the mail, even though 
he applied for one a week in advance of Election Day. So we can 
help put together such a list, but those are just a few off the 
top of my head.
    Mr. Johnson. If you would, submit it for the record for 
this proceeding.
    Yes, ma'am.
    Ms. Daniels. Congressman Johnson, may I also add, that it 
is not only what former Secretary of State Kemp did, but also 
what each and every jurisdiction within the State of Georgia 
did in regards to making--in regards to moving--closing polling 
places, moving polling places, redistricting, and other things 
that occurred after 2013 that would have been required--would 
have necessitated a Federal approval before they were 
implemented.
    So a laundry list of just what Secretary Kemp--the changes 
that Secretary Kemp made would quell in comparison to what----
    Mr. Johnson. With respect to the local and State boards of 
elections did.
    Ms. Daniels. Right. Absolutely. Every voting change.
    So when I was in the Department of Justice, of course, we 
received every voting change prior to its implementation. And 
so, that would be a list of hundreds, if not thousands, or tens 
of thousands of changes.
    Mr. Johnson. Last but not least, I would just note for the 
record that the 7th Congressional District race, which was won 
by the incumbent Republican, was lost by the Democrat by about 
400 votes. There were 1,500 or so absentee ballots that were 
not counted, that were discarded for various reasons. And I 
will just simply state that for the record.
    And with that I will yield back.
    Chairwoman Fudge. Thank you very much, Mr. Johnson.
    Mr. Richmond, you are recognized for five minutes.
    Mr. Richmond. Thank you, Madam Chairwoman.
    Let me just quickly ask Mr. Young, if you could, your 
testimony has been entered into the record, but your exhibits 
have not. So if you could provide us with those exhibits, 
because they are actually the cases in evidence we will need 
when any future voting rights we know is passed. And that would 
be the redistricting fight in Sumter, Randolph County, the 
polling places, Fulton County, proper public notice; Irwin 
County, closing voting poles, and early voting cutbacks. So if 
you can get those, it would be very helpful.
    To the panel, when you know of specific cases, and, Ms. 
Hopkins, let me just tell you, I am so in awe of your 
fortitude, your courage. You resemble not the struggle, but the 
strength and courage to overcome the obstacles. When we see 
you, we applaud you. We are very proud of you.
    If you know anybody that didn't have the courage that you 
have, or who may have been beaten down too much to continue to 
fight, Mr. Albright, you would know, and, Ms. Daniels, you 
would know, if you know those people, if we can get their 
stories, it becomes very important for us to build a record as 
to why what we have now doesn't work.
    I am from Louisiana. Fighting after the harm is done is too 
late. The other point, and Mr. Young, you may be able to 
elaborate on this, but we keep talking about deliberate actions 
that I think we can prove. We also have to talk about willful 
ignorance and willful incompetence.
    You know if you don't provide enough voting machines or you 
don't send in enough paper, if you don't know--if you don't do 
those things and do your job properly, you know what the effect 
will be, and that is creating another barrier for minorities to 
vote.
    As we talk about the deliberate actions, which I think we 
are covering very well, we still talk about the effects when we 
can't prove it is intentional, but we can prove the effects of 
the incompetence, whether willful or not, is creating a 
barrier.
    Mr. Young. That is right. I will just say two things in 
response to that. Number one, intentional discrimination is not 
easy to catch, as we all know. Even decades ago, courts have 
routinely said it is hard to catch. People are a lot more savvy 
now.
    Even where there is not that specific racist intent, there 
is a--from my experience, there is a culture of indifference, 
and I will come short of saying incompetence, but indifference 
among many election officials that don't realize how precious 
is the right to vote. They treat it like it is another 
bureaucracy.
    Anyone in this room who has dealt with government 
bureaucracy knows how frustrating it can be, no offense to the 
legislators. When they deal with the voting system, that is the 
same kind of attitude. It is up to, actually, both the 
Secretary of State and the county commissioners to take the 
right to vote seriously, and to provide adequate staffing and 
training so that people know that they are dealing with nuclear 
material. I mean, this is really precious.
    So, I agree that there is a kind of persistent culture of 
indifference, even sometimes disdain, when people bring up the 
discriminatory impact that their actions may have.
    Mr. Richmond. I guess with Ms. Daniels, anybody wants to 
comment, but also in the holding of Shelby, they talked about 
the fact that African American turnout had gone up 
significantly. That is not the standard. I mean, we also have 
better access to transportation. We have a whole bunch of 
things. But the standard is not that turnout has gone up; the 
standard should be that turnout is what it is supposed to be in 
terms of everybody who wants to vote can vote, not that we are 
doing better than we did in 1963.
    So if you want to comment on that before my time runs out.
    And with that answer, Madam Chairwoman, I will just yield 
back the balance of my time before she starts.
    Ms. Daniels. Congressman Richmond, I also want to let you 
know, I am a daughter of the South. I am from Winnfield, 
Louisiana, by the way.
    In regard to effects and the Shelby County decision, it is 
certainly important to note that the Supreme Court acknowledged 
that racism still exists in active voting. However, it did not 
consider it enough to continue the protections of the voting--
of Section 5 of the Voting Rights Act.
    The Shelby County decision has been compared to Plessy v. 
Ferguson to having the same level of impact in that regard when 
talking about the effects that it has had, particularly on 
communities of color, in denying access, and certainly in 
making sure that there is a disparate impact.
    We have seen in these cases throughout the South, 
particularly in Texas and North Carolina, in North Carolina 
where the Advancing Project was certainly working in that case 
where the court said that the State of North Carolina--that the 
legislators of North Carolina acted with precision, surgical 
precision, to essentially carve out African American 
communities and other communities of color to ensure that they 
diluted their right to vote.
    The impact is vast. Unfortunately, the courts are not 
recognizing it. We don't need to prove intentional 
discrimination. We need to prove that these practices and 
procedures discriminate certainly against people of color. That 
is in using Section 2.
    But the bar is so high, and it is so expensive. As Mr. 
Young has mentioned, the case that he was involved in lasted 5 
years. Section 2 cases last an average of three years, and cost 
more than $1 million, where, as compared to Section 5, where it 
is administrative, where the jurisdictions submitted the 
changes through the mail.
    The Department of Justice then reviewed them and had 60 
days to do so. In a 60-day period, the change was either 
approved or denied as compared--and then implemented as 
compared to the process that we currently have, which needs to 
be fixed.
    Chairwoman Fudge. Thank you very much. Thank you, Mr. 
Richmond.
    Ms. Sewell is recognized for five minutes.
    Ms. Sewell. Thank you, Madam Chairwoman.
    I would like to introduce to the record this lovely 
prepared statement that my staff so eloquently prepared. I 
would just like to submit it for the record.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Sewell. This is very personal for me. It is personal 
because so many of us know that we stand on the shoulders of 
folks like Rep. John Lewis. It is not enough that we keep 
saying we are standing on the shoulders. We must do something 
about it. All of us have the ability and the wherewithal 
wherever we sit, be it a Member of Congress, be it in your 
capacity as lawyers or as activists or community, you are a 
citizen of this United States, and you have a right to vote. 
Your vote is your voice. So we have to use it.
    So I am going to use my time to talk about the Supreme 
Court case and the challenge that was issued by the majority 
opinion that Chief Justice Roberts entered.
    Chief Justice Roberts said, and I am just going to quote 
him, ``There is no denying that the conditions that originally 
justified these measures no longer characterize voting in the 
covered jurisdictions.''
    What he was saying is that we are picking on States like 
Alabama and Georgia and Louisiana. What is your retort, as 
experts in this field, as to why it is--because I get this all 
of the time. My colleagues do, too. Why are we having to pick 
on certain States?
    If it were up to me, I would say in response to my 
Republican colleagues, we should be preclearing every change in 
voting rights in every State and political subdivision. The 
reality is that we would have to have a whole division called 
preclearance in order to do that, and we would not be making 
that investment. We should be making that investment. We can't. 
So we have to figure out ways to figure out the egregious 
actors.
    So I would love to know from our two lawyers here, what you 
think the response should be to Chief Justice Roberts? How 
would you help us, as lawmakers, having to come up with that 
formula, articulate that?
    Mr. Young. I will have two quick responses. Number one, as 
we have seen in the testimony today, racism is absolutely not 
over in Georgia or in the South. And anyone who has eyes and 
ears will tell you that. As we have seen in the testimony 
today, we desperately need preclearance in the South.
    But the second point, I completely agree with you, 
Congresswoman, that we need to have preclearance in other 
places as well, the North and the West and these other places 
that haven't had that acute visible history of racial 
discrimination. They think they can get away with it because 
they are not the South.
    Before I came to Georgia, I litigated in early voting 
cutbacks in Ohio that were discriminatory where they surgically 
tried to target Souls to the Polls and eliminate Golden Week. 
That was after Shelby County.
    Then I also litigated in Wisconin. Wisconsin was not under 
preclearance, and they passed a discriminatory voter ID law. 
That litigation is still pending to this day.
    So absolutely we need to look at other States.
    Ms. Sewell. Now, Ms. Daniels, the other thing that Chief 
Justice Roberts said, ``The question is whether the Act's 
extraordinarily measures, including its disparate treatment of 
the States, continue to satisfy constitutional requirements.''
    He wants to know whether or not we have the right to 
supersede the 10th Amendment, which gives States their powers 
that are not enumerated in the Constitution.
    So can you help me articulate how we in Congress can come 
up with a formula that actually would do that, aside from the 
fact that we have a formula that would look back, not 1964, 
1968, and 1972, which he specifically said, we would look--25-
year lookback, 1994 going forward.
    But surely, there are other things we need to articulate in 
that formula.
    Ms. Daniels. Congress clearly has the authroity to, under 
the 14th and 15th Amendments, to address these issues. It could 
also do it under the Elections Clause, which it used for the 
passage of th NVRA. The Supreme Court certainly issued the 
challenge to Congress to act in saying that Congress could 
change the formula so that it would not be considered outdated 
and unconstitutional.
    We do have contemporary examples of vote discrimination 
that I think--that it is important that Congress saw and used 
in the 2006 reauthorization, which was overwhelmingly----
    Ms. Sewell. Yes. But it is 15,000 pages--I am going to 
reclaim my time and close this out.
    There are 15,000 pages that were submitted back in 2006 
when we overwhelmingly--Congress passed a 25-year 
authorization.
    I just want to end by saying that all of us here today have 
the power of our own opinions, our own voices to help 
articulate. Do know that we plan on filing a bill to replace 
Section 4, and we need you all to use Twitter and every social 
media to get the stories, as Congressman Richmond said, about 
voter suppression that is alive and well.
    We need a steady drumbeat as we prove to America that we 
can restore the Voting Rights Act of 1965. But we must do so 
now. Not later, but now. Standing on the shoulders of people 
like Rep. John Lewis is not enough. What are we doing about 
paying it forward for the next generation.
    Thank you.
    [Applause.]
    Chairwoman Fudge. Thank you. Thank you all so much.
    Mr. Young, I am from Ohio. I live in Cuyahoga County, where 
we have about a million and a half residents, and we have one 
early voting site. One. But they say it is fair because every 
other county only has one, those counties that have 500 people. 
Our county has over a million.
    For those who would talk about States' rights, we do 
realize that there are some things that clearly are within the 
purview of the States. But I want to remind people that States' 
rights is why we had slavery as long as we did. So I think it 
is important that we recognize what States' rights really 
means.
    I want to thank all the witnesses for your testimony. I 
want to thank my colleagues, our recording studio who has been 
live-streaming this as we speak, all of those who have made 
this happen, all the staff that does all of this. I just come 
and sit down and talk. They do the work, and I want to thank 
them for that, my colleagues. I want to thank the Carter 
Center.
    I want to close by just saying these things: This is the 
democracy upon which all democracies are measured. And if we 
are falling short the way we are, we have to do something. We 
are talking about a democracy in Venezuela and we can't get 
people to vote in the United States.
    [Applause.]
    Chairwoman Fudge. There was a French historian by the name 
of Alexis de Tocqueville who, some 200-plus years ago, came to 
this country to determine why we are great. One of things he 
said was that this country is great because we have always had 
the ability to repair our faults. We need to repair our faults. 
But he also determined that America is great because Americans 
are good.
    So it is time for good people to ensure that every American 
has the unfettered and unabridged right to vote in this 
country. It is time that people in Congress who sit with me 
have the courage to say to the President, or whoever else is 
trying to be an impediment, we are going to walk past you. We 
are going to make sure that all the people we represent know 
that we represent them, not just the ones we like, not just the 
ones who agree with us, but all Americans.
    So we are going to be here. We are going to keep this fight 
going. If something like this is still happening in 2020, I am 
going to be a mad sister, I promise you.
    [Applause.]
    Chairwoman Fudge. Without objection, this Subcommittee 
stands adjourned.
    [Whereupon, at 11:14 a.m., the Subcommittee was adjourned.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
